No. 20-1775
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STATE OF ARIZONA, ET AL., PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, CALIFORNIA,
ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via email and firstclass mail, postage prepaid, this 23th day of August, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5856
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 23, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 23, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1775
ARIZONA, ET AL.
CITY AND COUNTY OF SAN FRANCISCO,
CALIFORNIA, ET AL.

SARA JENNIFER EISENBERG
SAN FRANCISCO CITY ATTORNEY'S OFFICE
CITY HALL, 1 DR. CARLTON B. GOODLET
PLACE, ROOM 234
SAN FRANCISCO , CA 94102
415-554-4633
SARA.EISENBERG@SFCITYATTY.ORG
HELEN H. HONG
DEPUTY SOLICITOR GENERAL
600 WEST BROADWAY STREET
STE. 1800
SAN DIEGO, CA 92101
619-738-9693
HELEN.HONG@DOJ.CA.GOV
BRUNN WALL ROYSDEN III
OFFICE OF THE ARIZONA ATTORNEY
GENERAL
2005 N. CENTRAL AVE.
PHOENIX, AZ 85004
602-542-5025
BEAU.ROYSDEN@AZAG.GOV

